<html>
<title> - LIBYA'S DESCENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                            LIBYA'S DESCENT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2014

                               __________

                           Serial No. 113-218

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
          
                         U.S. GOVERNMENT PRINTING OFFICE 

89-740 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                       
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Gerald Feierstein, Principal Deputy Assistant 
  Secretary, Bureau of Near Eastern Affairs, U.S. Department of 
  State..........................................................     6

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Gerald Feierstein: Prepared statement..............     8

                                APPENDIX

Hearing notice...................................................    38
Hearing minutes..................................................    39
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    41

 
                            LIBYA'S DESCENT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:04 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. We are going to ask if the members of the 
committee could take their seats and the witnesses as well. 
This hearing, entitled ``Libya's Descent,'' will come to order. 
Less than 3 years ago Libya, at the time, if we think back, was 
hailed as a successful example of multilateral engagement--NATO 
and our allies all working together to stop the slaughter of 
civilians and to free an oppressed people from dictatorship, as 
was articulated at the time, to chart a prosperous path forward 
for this country in North Africa.
    Unfortunately, in the ensuing years we have a situation 
since that date where the reality is that Libya has become 
chaotic, violent, awash in terrorist organizations and more 
militias than we can count. Its porous borders allow for the 
easy transit of people, of weapons, of money from conflicts 
across North Africa to Gaza to Syria to Iraq, and you have 
rival governments now in Tobruk and Tripoli making competing 
claims of legitimacy. Four months of fighting by the militias 
there--the last 4 months we have seen an additional \1/4\ 
million people flee Libya and ``bring a climate of fear''--
those are the words of the U.N. special report--``a climate of 
fear'' across the country.
    Given this downward spiral, it was not surprising that our 
Embassy in Tripoli had to be evacuated early this summer, and 
last week some of us saw the online videos of militants 
occupying that building. I think it reminded Americans of the 
deadly terrorist attack on our facility in Benghazi that took 
place 2 years ago when you see that occupation.
    But you also saw these individuals doing belly flops into 
the pool. It was a reminder that you can't have a policy of 
neglect that then plays itself out into a humanitarian crisis 
and what, frankly, is a national security crisis.
    So a U.N. Security Council has called for a cease fire and 
sanctions on those involved in the violence. But at the end of 
the day the rhetoric has not been matched up with leadership 
here and perhaps we should not be surprised that regional 
states conducted the air strikes on Libya last month.
    Regional states are now attempting to affect their 
interests. They are hoping to help their favorite proxy in this 
conflict. Some suggest that Libya may even be headed for a 
partition or that neighboring Algeria or Egypt may intervene. 
We cannot allow Libya to become the Lebanon of the 1970s and 
1980s. We remember what happened in Lebanon. We remember how 
long society struggled with the aftermath of that situation, 
and what happened in Lebanon was that regional states played 
out their feuds at the expense of the local population. And if 
that is to be avoided, then Libya needs immediate attention. As 
we will hear today, the administration is pushing all sides 
toward a political solution.
    But I don't see this happening without real pressure on the 
factions, real leverage on those factions. Others advocate for 
cutting off outside support for militias and compelling their 
disarmament through threat of force. Such action would have to 
be coupled with programs to unlock Libya's wealth in order to 
train a security force for all Libyans.
    But given how poorly the U.S. and coalition partners have 
worked on Libya to date, it is tough to see such an effort 
coming together. We have not really had a desire to lead in 
Libya and it is an absolutely necessity, I think, right now, 
that the administration lay out a strategy to lead in Libya.
    We need to hear testimony today on the administration's 
plan to respond to the very real threats to national security 
that a failed Libya represents, and we need to also hear about 
the different proposals for action in Libya that are being 
discussed at the United Nations, at NATO, and among other North 
African countries.
    We need to hear what those options are, what those 
discussions are. Libya and every conflict is, of course, rooted 
in local conditions but the many Middle Eastern conflicts do 
share a driving force of extremism, jihadists fueled by radical 
ideology, armed and funded from outside the immediate area.
    In this case, again, not surprisingly, Qatar is up to its 
elbows in funding terrorist activity there or funding some of 
these militias but other countries as well have their proxies.
    It is a deadly accelerant that the administration has been 
slow in recognizing and countering and part of this hearing 
today is to bring some focus on it and bring some strategy into 
it.
    So I would now like to turn to our ranking member, Mr. Ted 
Deutch of Florida, for his opening remarks. I would mention 
that Eliot Engel was in New York for Primary Day yesterday so 
he is on his way back and so ranking today is Mr. Ted Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. What began in Libya as 
the successful overthrow of the dictator Muammar Gaddafi has 
tragically devolved into an environment that appears to have 
put the country on the brink of becoming a failed state.
    There were plans in place after the revolution in 2011 that 
offered promising signs such as the formation of national 
institutions, the reintegration of militias into a new national 
military force.
    But the Libya we see today is not the Libya that the Libyan 
people who suffered so long under Gaddafi nor the world 
envisioned. In late June of this year, the Subcommittee on the 
Middle East and North Africa held a hearing on Libya, entitled 
``Libya at a Crossroads.''
    Now, just months later it appears that Libya is on a path 
away from democracy and stability and toward increased violence 
and fragmentation. The fracturing of Libya's elected and state 
institutions has left the country incapable of producing or 
implementing any effective policies.
    The recently elected House of Representatives has fled to 
the eastern city of Tubruk while the unrecognized reformed 
General National Congress dominated by Islamist former MPs sits 
in the capitol of Tripoli.
    The National Security Force had never achieved sole control 
over security within its borders and has now suffered from 
defections and divisions. Most of the country is now dominated 
by various militant groups vying for control, weaving an 
inconsistent patchwork of loyalties throughout the country.
    The security situation has deteriorated to the point that 
Libya's airport and much of Tripoli are dominated by Islamist 
militias. The U.S. Government has relocated our Embassy staff 
amid reports that a force aligned with a Libya Dawn coalition 
is now claiming to be guarding our abandoned Embassy. Fear that 
unrest inside Libya will not be contained within its borders is 
permeating the region.
    The instability has created an environment where 
transnational extremist groups can easily travel in and out of 
the country and porous borders have allowed for the easy flow 
of weapons and foreign fighters.
    Following their respective revolutions, Egypt to Libya's 
east and Tunisia to the northwest have worked hard to resist 
the pressures of radical militant groups from causing 
significant unrest and moving their countries backward.
    But having a failed state as a neighbor, in which terrorist 
groups are free to consolidate and grow and are given free 
access to significant amounts of weapons and resources, is not 
a reality that either country can accept. So the question now 
remains: Who on the ground can be a partner for the 
international community?
    There is no neat division of loyalty among the Libyan 
people and it is difficult to determine which parties share our 
interests. The members of the House of Representatives were 
elected only a few months ago, albeit with a very low voter 
turnout.
    Possibly for this reason it lacks recognition and 
legitimacy for many Libyans. The alternative body, the GNC, 
defied the political roadmap in the Libyan constitution by 
creating a parallel government separate from the elected body.
    General Haftar's forces have been fighting Islamist groups 
including Ansar al-Sharia, the group responsible for the attack 
on our Benghazi mission nearly 2 years ago that led to the 
tragic death of Ambassador Chris Stevens and three other 
Americans. But his forces have faced recent setbacks and his 
political intentions are not entirely clear.
    It also remains unclear what role other countries in the 
region are playing in Libya's internal affairs. Nevertheless, I 
believe the United States must remain engaged in Libya.
    We must encourage a political process that results in the 
recognition of one legitimate government and continue to offer 
support through good governance, democracy assistance, and rule 
of law development programs.
    We must remain ready to assist in the training of a Libyan 
General Purpose Force that is capable of reclaiming security 
control in the country and encourage the Libyan Government to 
take steps to finally commence this program.
    As I have said, Libya's neighbors have a vested interest in 
restoring stability to Libya. The United Nations has committed 
a point person to work on negotiating a cease fire between the 
various factions.
    But the international community must be clear that 
continued support for extremist Islamist groups by regional 
actors cannot be tolerated.
    Libya has a long way to go to repair the 42 years of 
Gaddafi's rule, in which he tore down any semblance of 
democratic governance and functioning institutions and 
ultimately the future of Libya is in the hands of the Libyan 
people.
    Ambassador Feierstein, I look forward to your testimony to 
hear how the State Department is determining the best approach 
for the United States to take to prevent Libya from indeed 
becoming a failed state, and I yield back.
    Chairman Royce. Thank you, Mr. Deutch. We go to the chair 
of the Subcommittee on the Middle East and North Africa, Ms. 
Ileana Ros-Lehtinen of Florida, for 1 minute.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, for 
holding this timely hearing. As Mr. Deutch pointed out, our 
Subcommittee on the Middle East and North Africa held a hearing 
with State Department officials on Libya's faltering transition 
months ago and here we are again, only Libya's deteriorating 
situation has gotten worse and Libya is teetering on the brink 
of becoming a failed state.
    After the air campaign in Libya in 2011, the Obama 
administration turned its back on the long-term engagement that 
Libya desperately needed for a smoother transition.
    The political narrative that all was swell in Libya created 
a breeding ground for the terrorist attack against Americans in 
our consulate in Benghazi. After this void it was replaced by 
militias, terrorist organizations, and other nonstate actors 
that are ripping this country apart.
    We want a concrete plan from the administration to address 
how it is working to prevent Libya from turning into a larger 
safe haven for terrorists and posing a serious threat to the 
region and U.S. national security.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Chairwoman. We are going to go 
to--for 1 minute to Gerry Connolly of Virginia with the Middle 
East Subcommittee and then to the chairman of the Subcommittee 
on Terrorism, Nonproliferation, and Trade, Judge Ted Poe of 
Texas, for a minute.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome, Mr. 
Ambassador.
    I very much respect my dear friend, Ms. Ros-Lehtinen of 
Florida, but I cannot accept the gratuitous potshot at the 
administration as if this President and the administration are 
responsible for what has transpired in Libya.
    Many of the same current critics criticized the 
administration for not being more active in Libya at the time 
of the revolution.
    There are internal forces in Libya that have to be 
understood and that are far beyond American control and the 
reign of militias is one of them. When I went to visit Libya, 
security at the airport was provided by a militia. That was 
over 2 years ago, and unfortunately the situation seems to have 
deteriorated.
    So I think it is really important, and this I do agree with 
Ms. Ros-Lehtinen--we can't look at the Libya situation with 
rose-colored glasses. We have got to figure out what are our 
next steps forward and what, if anything, can be done to try to 
put us on a path toward stable governance. Thank you, Mr. 
Chairman.
    Chairman Royce. Thank you. Mr. Poe.
    Mr. Poe. No question about it, Gaddafi was a bad guy. But 
when the United States decided to remove his legitimate 
government and overthrow him, that was, to me, a strategic 
political mistake that has consequences we see today.
    Now, such decision, of course, was made without 
congressional approval. When the United States gave the green 
light to Qatar to send weapons to Libya and spread the 
conflict, it spread throughout North Africa including to the 
terrorist group AQIM.
    AQIM used those weapons to take over a gas plant in Algeria 
and kill one of my constituents, Victor Lovelady, and two other 
Americans. Of course, we know about the U.S. Ambassador and 
three other Americans killed in Benghazi.
    When Gaddafi was gone, radicals of different stripes 
including some affiliated with al-Qaeda had filled the vacuum. 
The Government of Libya cannot govern because it has no 
functional army and to me it is a failed state.
    The people support the militia groups because they are the 
ones--they provide the security so people support them. Now the 
United States has pulled out of Libya, leaving terrorists to 
play in the swimming pools owned by the United States.
    Libya today is a result of a policy of removing a 
government without congressional approval because we don't like 
them. We are not safer because Gaddafi is gone. The world is 
not safer and Libya is in chaos, and I yield back.
    Chairman Royce. This morning we are pleased to be joined by 
Ambassador Gerald Feierstein, Principal Deputy Assistant 
Secretary for the Bureau of Near Eastern Affairs.
    Prior to his current position, he was the United States 
Ambassador to Yemen from 2010 to 2013--tough post--and he 
joined the Foreign Service in June of '75 and has served 
overseas in eight different postings including Islamabad, 
Tunis, Riyadh and Beirut--tougher posts.
    The Ambassador also served as principal deputy assistant 
coordinator and deputy assistant coordinator for programs in 
the Bureau of Counterterrorism from '06 to '08.
    Without objection, we are going to have the witness' full 
prepared statement be made part of the record and members here 
will have 5 calendar days in which they can submit any 
statements or questions or any extraneous material for the 
record.
    So Ambassador Feierstein, if you would please summarize 
your remarks. We will go 5 minutes and then ask you questions. 
Thank you.

STATEMENT OF THE HONORABLE GERALD FEIERSTEIN, PRINCIPAL DEPUTY 
   ASSISTANT SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Feierstein. Thank you very--thank you very much, 
Chairman Royce, Ranking Member Deutch, members of the 
committee, for giving me this opportunity to come here today 
and to discuss the situation in Libya and the administration's 
response.
    Since the 2011 revolution, millions of Libyans have 
expressed high hopes that the country will seize the 
opportunity provided by the overthrow of the Gaddafi regime to 
build a new state based on strong democratic institutions and 
providing a secure, stable framework that would put Libya's 
vast energy resources to work on behalf of the Libyan people.
    Instead, Libya's new political institutions and leaders 
have failed to beat Libya's challenges. Despite the efforts of 
many brave Libyans as well as the active engagement of the 
United States and our international partners, too many of 
Libya's power brokers and militia commanders have rejected 
principles of dialogue, consensus building, and compromise in 
favor of pursuit of narrow-minded interests and a scramble for 
control of Libya's resources.
    The weak central government ravaged by 42 years of 
Gaddafi's misrule has proven incapable of providing security, 
governance or access to economic opportunity. In the absence of 
capable government, opportunistic criminals, militias, and 
terrorist groups are battling for control.
    Internecine clashes have been fuelled by domestic weapons 
stockpiles and flows of fighters and weapons as a result of the 
government's inability to secure Libya's long porous borders.
    In recent months, hundreds of Libyan civilians have died as 
a result of the conflict and the United Nations reports that 
\1/4\ million people inside Libya have been displaced since the 
recent clashes began.
    Critical Libyan public infrastructure including Libya's 
major airports in Benghazi and in Tripoli have also been 
targeted by rival militias. Indeed, the conflict in parts of 
the country is best understood primarily as a struggle over 
resources and power and only secondarily over ideology.
    Clearly, Libya cannot move forward without addressing its 
lawlessness and violence and it cannot address the violence 
without achieving a basic political framework for the path 
forward.
    But Libya's political transition has stalled and in recent 
weeks the government itself has fractured into two competing 
groups based in different cities, Tripoli and Tubruk, even as 
most of the international community has been forced by the 
violence to leave the country.
    As fighting escalated in the Tripoli neighborhood where our 
Embassy is located, the United States decided to suspend 
operations temporarily and withdraw U.S. personnel from the 
country. Ambassador Jones and a small team have relocated to 
our Embassy in Malta from which they continue to carry out 
their diplomatic and assistance duties.
    It remains in United States interests to help remove Libya 
from this cycle of violence. We want to see the fighting end 
and competing factions commit to settling their differences 
through a process of dialogue and negotiation.
    In fact, despite the violence, we do see a potential path 
forward. There are still many in Libya who understand that 
their country needs an inclusive government that shares power 
and resources in a fair and transparent way.
    We are working closely with the United Nations, the 
European Union, and other European partners to advance a 
unified approach, encouraging all Libyans to adopt basic 
principles of nonviolence and commit to a democratic state.
    We are working to promote these principles directly with 
Libyans from across the country and the political spectrum. We 
and our allies also have a number of coordinated assistance 
programs designed to help Libyans build a secure, democratic 
and prosperous state that continues to operate through local 
staff and existing networks on the ground.
    Libyan spoilers need to understand that there are 
consequences for violence and for actions that threaten Libya's 
democratic transition. Consistent with that, we were able to 
work with the members of the U.N. Security Council 2 weeks ago 
to secure unanimous approval of a new resolution, U.N. SCR 
2174, that provides for targeted U.N. sanctions against those 
who undermine the political transition process.
    We also are reaching out to Libya's neighbors and to others 
in the region and beyond who have a strong interest in seeing a 
stable, secure and democratic Libya. Our goal is to seek these 
countries' support in pushing all Libyan factions into a 
productive political process. Envisioning a peaceful and 
prosperous Libya can be challenging, particularly when the 
trajectory is negative. But if Libya could overcome its 
discord, it has unique advantages that could support the 
advancement of the democratic transition process and facilitate 
building the state. If Libya's political factions were to work 
together instead of fighting, they could boost oil and other 
exports to capacity and use the proceeds to invest in Libya's 
infrastructure, its health and education systems and, most 
importantly, its people.
    With a population of only 6 million, Libya offers enormous 
opportunities. Supporting a political resolution to the current 
impasse so that we can advance Libyans' efforts to build a 
democratic state remains one of the United States' top foreign 
policy goals.
    Thank you, Mr. Chairman, and I stand to answer questions 
from the committee.
    [The prepared statement of Mr. Feierstein follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                              ----------                              

    Chairman Royce. Ambassador, thank you. Thank you very much. 
A couple of quick questions.
    One has been, how to pronounces this--Khoms, the town 125 
miles east of Tripoli that we read about where it is sort of 
the favorite jumping off point for these fighters that are 
headed to ISIL. Can----
    Mr. Feierstein. There is Derna.
    Chairman Royce. Well, the region--let us just talk about 
the region in general in the east. That is where so many of 
these key al-Qaeda fighters came from in the past and now we 
see these ISIS fighters coming out of that area.
    Can you provide any more detail there about the route that 
they are taking, you know, to get into the Iraq-Syria fight? 
And then last week, we saw the story about the plane from Sudan 
landing near the Libyan-Sudanese border and the government in 
Libya claims that the plane was full of weapons, destined for 
the Islamist Libya Dawn and for that militia, and in response 
you saw the Sudanese military attache being expelled.
    The Sudanese Government denied it, but at the same time you 
had a situation where President Bashir warmly received the 
Islamist party representative, the President of the former 
Libyan General National Congress in Khartoum last week.
    So we see that internecine situation where they are 
engaged. You see that Qatar, which is not only engaged here but 
with al-Nusra--funding al-Nusra, and then 90 percent of Hamas--
they tell us that 90 percent of Hamas' funding is now coming 
from Qatar.
    What can you tell us about these outside countries' 
interests and who they are funding here and also the connection 
to these young fighters getting whipped up and ending up 
enlisting with ISIL?
    Mr. Feierstein. Thank you, Mr. Chairman, and all of those 
are important questions.
    In terms of the flow of foreign fighters, I don't think 
that there is one single route that they--that they pursue to 
get to Syria or to Iraq. There are a number of different ways 
that they transit from Libya into Europe, into Turkey, directly 
into Syria.
    So one of the things, of course, that we are talking about 
in terms of what we are going to try to accomplish in 
confronting ISIL and, as the President said, in defeating ISIL, 
is, in fact, to work with our friends and partners around the 
world to cut off this flow of foreign fighters and there are a 
number of different steps that we need to take to do that and 
the State Department--Ambassador Bradtke--is very much involved 
in visiting and particularly in North Africa where we do have 
serious concerns about the movement of foreign fighters.
    Chairman Royce. Yes, but what is happening is that Sudan 
and other countries are playing this role in creating absolute 
chaos and out of chaos is coming, you know, more enlistments.
    What role is Sudan playing right now in Libya? In the past, 
we have talked about the role Sudan played, you know, in 
supporting groups like the Lord's Resistance Army--Joseph 
Kony--in trying to destabilize the Democratic Republic of Congo 
and Uganda and Central African Republic.
    Well, you know, here is Sudan again playing a role. What 
can you tell us about that role?
    Mr. Feierstein. Yes, sir, and certainly the reports that 
you mentioned of flights from Sudan bringing weapons into 
Libya--we are very aware of those.
    It is a serious problem. We have taken a broad position not 
only with the Qataris and the Sudanese but across the board 
that foreign intervention inside of Libya is unhelpful, it is 
deepening divisions within that society.
    It is provocative. It is promoting the very conflict that 
we believe is the major obstacle and so we are looking--there 
is a process under way--it is called the Tunis process--that 
brings together Libya's neighbors in ways that we think are 
constructive and helpful, and they met 2 weeks ago in Cairo and 
issued a very helpful statement which basically said that they 
are opposed to foreign involvement, foreign intervention in 
Libyan affairs. Sudan is part of that process and we will be 
looking to them for--to stop.
    Chairman Royce. Well, I understand. Ambassador, I wish your 
testimony made me feel better about the direction we are 
headed.
    I think that the reality is whatever our protestations and 
whatever people are signing in terms of these statements of 
disapproval, the reality is that Qatar and Sudan and other 
states are pouring in weapons, pouring in money and creating 
the instability, the chaos, out of which comes the threat, and 
I think we need a strategy for what we are going to do--not 
say--but what we are going to do with respect to the emir of 
Qatar.
    We need a strategy in terms of what we are going to do with 
Khartoum. But anyway, my time has expired. I will go to Mr. Ted 
Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. Ambassador Feierstein, 
understanding that this might be classified, can you comment on 
the reported action taken by the Egyptians and the Emiratis in 
Libya and what are the ramifications of this kind of foreign 
action at this point, given the internal chaos within the 
country?
    Mr. Feierstein. Thank you, Mr. Deutch, and as you 
suggested, it is difficult to talk about that issue in this 
setting. But we would be happy to come back and speak to you in 
a classified setting and provide you with a fuller brief on 
what we know about those issues.
    But I would say that, as a general principle whenever there 
are allegations like this, we do investigate them and we will 
try to make sure that we understand what happened.
    But, again, it goes back to the general principle, which is 
what we see as the--as the danger of this foreign engagement 
and the fact is that as long as we have this conflict going on 
inside of Libya it is going to invite unhelpful engagement by 
outside parties who are going to use this as an opportunity to 
pursue their own goals, their own agendas.
    And so the strategy that we have is to try to bring the 
Libyans together, end the conflict inside of Libya and the 
violence and begin a political process that will close off the 
opportunities that outside actors have to engage unhelpfully 
inside of Libya.
    Mr. Deutch. All right. Thank you. I hope we have the 
opportunity to pursue that further in the appropriate setting. 
The prospect of Libya as a terrorist safe haven isn't just a 
U.S. problem. It is a problem for the international community, 
particularly our European friends, given the proximity.
    What is our assessment of the links between the militants 
in Libya and other al-Qaeda-affiliated groups and do we know at 
this point whether Libyan fighters are joining ISIL's ranks?
    Mr. Feierstein. The links, of course, we do have--as was 
mentioned in the opening statements, we do have a longstanding 
issue with al-Qaeda and the Islamic Maghreb--AQIM--which has 
been a concern for many years. We watch very closely.
    There have been some who have expressed interest in joining 
their programs, their organizations with ISIL. We haven't 
actually seen that happen yet.
    We are certainly concerned about Libyan fighters who are 
going to Syria or Iraq to join the fight there. It goes back to 
the concern that we have overall about the flow of foreign 
fighters and the need to stop that.
    So all of these remain concerns and issues that are high in 
our agenda. In terms of what we are doing, absolutely correct 
that the Europeans are extremely concerned about this.
    We have the European Union's border assistance 
organization, EUBAM, that has established and has been trying 
to push a program inside of Libya that would help secure Libyan 
borders.
    In terms of our own activities, we are supporting EUBAM but 
we are also working with Libya's neighbors--with the Egyptians, 
with Tunisia, with Algeria--to try to help them strengthen 
their border security.
    We are also, of course, very concerned about the flow of 
weapons and trying to remove weapons from Libya and prevent the 
flow of new weapons, and the U.N. Security Resolution 2174 
includes new language on preventing the flow of weapons inside 
of Libya.
    So we are working across a number of different avenues of 
effort to try to prevent the flow of fighters and weapons in 
and out of Libya and to provide greater security.
    Mr. Deutch. Thank you. I am--I hope over the course of this 
hearing you will have an opportunity to speak to the broader 
issue of the reason that we should continue to be involved in 
Libya.
    Hopefully, you will have a chance to speak to the State 
Department's view of not just why Libya is important--you have 
spoken about that some, we have all spoken about that--but what 
is--where are we going.
    All of our discussions, understandably, are focused on the 
near term and the intermediate term. Long term, though, what do 
you expect Syria to--Libya, rather, to look like in 5 years? In 
10 years?
    What is the best that we can actually hope for? And I am 
out of time but I do hope that you will have a chance to speak 
to that. I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch. Welcome, 
Mr. Ambassador.
    As Mr. Deutch pointed out, our subcommittee held a hearing 
months ago on Libya, the same day that elections were being 
held in that country, and while there may have been a cautious 
optimism that the June 25 elections could have been an 
important step toward stability in Libya, during the hearing I 
made it clear that the timing of the elections was rushed 
because it was announced only 1 month before the elections were 
going to take place.
    So it is not surprising that the elections ultimately 
failed to bring about a large turnout nor the much desired path 
toward democracy and the rule of law in Libya, and during that 
hearing Ambassador Patterson was optimistic that the elections 
in Libya, which were the third in less than 2 years, would be 
an important step forward toward Libya's stability.
    Now we see that that was misplaced optimism as the 
situation is worse than ever. I cautioned then that as long as 
the security situation remained tenuous in Libya so too will 
the political will and the transition stall and that Libya's 
economy would continue to falter.
    So given the fact that your testimony admits that there is 
an absence of a capable government, why were elections rushed 
at the time when we knew that it wasn't sustainable for the 
long term?
    And I agree that elections are important but it is just one 
part of a democracy and only when there is a political will to 
govern effectively and inclusively.
    The fighting in Libya continues to be overshadowed by a 
struggle between secular forces against Islamists, but with 
over 1,600 militias in this country this characterization is 
actually oversimplified, but just in terms of trying to grab 
the enormity of the problem--1,600 militias.
    In our subhearing, Assistant Secretary Patterson said, 
``The most urgent objective we have is for counterterrorism.'' 
Yet, 3 years after Gaddafi and over a year after the U.S. 
committed to train the General Purpose Force, GPF, not a single 
one of the 5,000 to 8,000 planned forces has in fact been 
trained.
    Seeing the need now more than ever for a security force in 
Libya, why has this project not gotten off the ground?
    How else do we plan on combating the terrorist threat that 
is growing within Libya, short of direct U.S. intervention? And 
not only has the internal fighting deteriorated but it has 
already become a regional conflict. Unsecure borders allow 
extremists and weapons smugglers unhindered access into the 
country.
    And then my third question is about the Friends of Libya 
Summit. I know that these entities have been meeting off and 
on. It was announced earlier that the U.N. General Assembly, 
the African Union, and the Spanish Government will hold this 
Friends of Libya Summit in Madrid.
    Is this going to happen or is it just a continuation of 
what has--the meetings that have already taken place? Is Egypt 
trying to get support for its 10-point plan on Libya? Because I 
notice that in your testimony you don't highlight that. Does 
the State Department endorse this plan or not?
    So my questions are the three questions: The General 
Purpose Force training, what is the status of that?; looking 
back, do we feel that we were rushing the election process and 
being too enthusiastic about it?; and the Friends of Libya 
Summit, Egypt's 10-point plan--are we endorsing that and what 
is happening?
    Thank you, sir.
    Mr. Feierstein. Thank you, Ms. Ros-Lehtinen. In terms of 
the three specific points, the General Purpose Force is still 
something that we want to pursue.
    It is something that we have discussed with Prime Minister 
al-Thani and the other senior leadership. We had an opportunity 
to talk about that when he was here for the Africa Summit a 
couple of weeks ago.
    They, subsequently to those meetings, actually signed the 
letter of agreement for the GPF and, of course, a part of the 
issue there is the funding for it and their obligation to pay 
for the training. But we are working on that and we hope to 
move forward.
    So as soon as circumstances permit, it is still our 
commitment and our--and our desire to move forward on the 
General Purpose Force. We continue to see that as an important 
element of the overall security framework for Libya, going 
forward.
    Ms. Ros-Lehtinen. Thank you, sir. I asked too many 
questions and I blab on too much. So I hope that you get to the 
answers through another venue. Thank you so much.
    Mr. Feierstein. Thank you, ma'am.
    Ms. Ros-Lehtinen. Dr. Bera of California is recognized.
    Mr. Bera. Thank you, Chairwoman. Libya continues to show 
the difficult transition from autocratic authoritarian regimes 
to democracy or some form of democracy.
    I mean, we have seen it--seen the difficulty in Iraq and we 
have seen the turmoil for decades in Lebanon and, again, Libya 
proves that it is not a straight shot.
    You know, I think playing off of the question that my 
colleague from Florida, Mr. Deutch, asked, what does the long 
term look like in Libya as well as some of these other states 
that are making this transition?
    Mr. Feierstein. Thank you for the question, and I think 
that as I alluded in my opening statement, our view is that 
Libya is still a country with enormous potential. It has, of 
course, as we know, huge energy resources and established 
infrastructure that can--that can export those resources 
primarily to Europe, which is their major customer.
    It is a relatively small population. We believe that with 
the proper investment in health and education it is a 
population that will be able to manage Libyan affairs very 
successfully.
    We believe and are committed to trying to help Libya 
develop the governmental institutions that would allow it to 
build a stable democratic society and we also believe that this 
is what the majority of Libyans desire.
    So I think that our view is that the path forward, if we 
can stabilize the situation now; end the violence, get a 
political process moving that allows Libyans to come to a 
negotiating table and work out their differences, if we can do 
those things then the international community including the 
United States, including Libya's neighbors and the countries of 
Europe are standing by to support the development of the 
institutions that will allow them to move forward successfully 
into the future.
    Mr. Bera. So you touched on a key point. So if we look at 
our own democracy here in America, time and time again we have 
demonstrated when threatened we are willing to step up and 
fight and die to protect our freedom and democracy.
    You mentioned that, Ambassador, that the Libyan people 
desire that democracy or that stability. Do you have a sense 
that they are willing to step up and fight against, you know, 
the militias that, you know, potentially are tearing their 
country apart?
    I mean, again, democracy, for it to have long-term 
stability, has to come from within and the people have to be 
willing to fight for it.
    Mr. Feierstein. We couldn't agree more and I think that the 
Libyan people demonstrated during the resistance in 2011 to 
Muammar Gaddafi and the clique around him that they are 
prepared to stand up and to fight and to die in defense of 
their values and I do think, again, that what we see is still 
the critical mass of Libyans who are ready to do that, who are 
ready to work with us, the international community, ready to 
work with each other to try to build the kind of society that 
they would like to see for the future.
    Mr. Bera. Great, and I have got two last questions. I will 
try to get them in here. What percentage of the destabilizing 
forces in these militias are actually coming external from 
Libya, that are not fighting for the interests of the Libyan 
people?
    Mr. Feierstein. To the best of our knowledge and 
understanding, sir, we believe that there are not very many 
foreign fighters inside of Libya. This is mostly militias who 
were drawn from the Libyan population.
    Mr. Bera. Okay. And lastly, if we look at the Arab Spring 
in total, it is interesting. The one country where the Arab 
Spring purportedly started--Tunisia--while not without its own 
challenges, appears to be relatively stable in this. Are there 
any contrasts that we can draw or lessons that we can learn 
from Tunisia?
    Mr. Feierstein. Tunisia is, of course, in our view, as you 
said, one of the states that has most successfully moved into 
this political transition period.
    I think that you could say that Tunisia, over the course of 
its independent history, had a number of governmental 
institutions that continue to function and that continue to 
provide a framework for this successful transition.
    I think also we should credit the wisdom of the Tunisian 
political leadership, the people who actually came to power 
after the Arab Spring, after the revolution there, made a 
number of very smart decisions about how they were going to 
work together--exactly the same kind of initiative that we 
would like to see the Libyans demonstrate in terms of their own 
transition.
    Mr. Bera. Great. Thank you.
    Ms. Ros-Lehtinen. Thank you, Dr. Bera. Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair.
    Sir, I appreciate you being here. You know, I always get a 
kick out of you guys when you come in and we talk about 
promoting democracy over there and, you know, if you look at 
the traditional democracies they only last about 200 years, and 
a democracy is mob rule. It is majority rule.
    The thing that has worked with our country is it is a 
constitutional republic--that we go through a democratic 
process to elect leaders--and, you know, when we look at the 
history of these democracies, we are trying to promote 
something that is unsustainable because they always fall into 
decay and it has been proven over and over in history.
    So I hope we change that dynamic. With saying that, you 
know, when I look at what we have done in the Middle East over 
the last 40 or 50 years, you know, we have spent over--we have 
invested over $78 billion in Egypt, you know, and they are 
struggling now, and the other countries that we have entered we 
have seen them struggling.
    One of my questions is how effective is the U.N. Security 
Council in initiating and carrying out the cease fire that they 
brokered at the end of August? I mean, do you see that as 
something that is going to hold?
    Is it going to be effective and is it going to lead to some 
stability in that country? We have seen it so many times where 
they go in there and just--it decays, and the thing that made 
our democracy work, our republic work, is we had a group of 
people that laid everything on the line to fight for freedom 
and liberty.
    Do they have that same sentiment? So go back to the U.N. 
first. Do you see them initiating and carrying this out to be 
effective? Go ahead and answer that first.
    Mr. Feierstein. Congressman, first, let me say I couldn't 
agree with you more that, really, the ability to sustain 
democratic governance is really based on the stability of the 
institutions that support it and then the reason--I mean, we 
can talk about the reason that the U.S. has been successful 
that way is because we had strong institutions that managed and 
guided that democracy and kept it from deteriorating into mob 
rule.
    Where we are right now, of course, is that we have a new 
SRSG--Senior Representative for the Secretary General, 
Bernardino Leon, who has just taken over from Tarek Mitri as 
the U.N. representative for Libya.
    He has visited Libya over the last several days and held 
talks with a number of the leading Libyan politicians and is 
working very hard with our support and with the support of the 
rest of the international community to try to get the violence 
to stop and to move into that political dialogue.
    Mr. Yoho. Okay. And then right now how effective or 
successful will Khalifa Haftar be, in your opinion, since he 
has an anti-Islamist view, versus the people that are fighting 
that are of the more Islamic, maybe radical view?
    Do you see that being successful, you know, because you 
have got a divergence of ideologies and what we have seen 
developing in Turkey and what you have seen developing in 
Qatar, you know, those people are standing--like Turkey 
realizes they can't survive without being a Muslim Islamist 
state, and when you have somebody that is trying to develop 
that in Libya, I just see that as a no-win. What is your 
opinion on that?
    Mr. Feierstein. Sir, I think that Khalifa Haftar actually 
put his finger on something that was of concern to a great 
number of Libyans, which was the drift of the country toward an 
Islamist agenda, and I think he was successful at that. But, 
unfortunately, his solution--his channel has been a violent 
one.
    He has pursued a very aggressive stance toward some of 
these groups and he has ended up promoting a more polarized 
society and in fact has led to the reaction to his position and 
that has contributed directly to the violence.
    Mr. Yoho. Let me interrupt you here because I am about out 
of time. You said the country was drifting to the Islamist view 
and he stopped that.
    If it is drifting that way, is that not public sentiment of 
what they want and so there is going to be resentment and there 
is going to be that internal conflict? I don't see--I don't see 
a good solution in that.
    Mr. Feierstein. And this is exactly right--that there are 
differences of view within that society. There are some people 
who are supporting a more Islamic vision for their future and 
there are some who are more secular.
    So and, again, we believe that the important thing is that 
there are elements on both sides of that divide who are 
committed to a democratic future, who are committed to a more 
open tolerant society. We want to support them.
    Khalifa Haftar, unfortunately, has deepened the 
polarization in the society through violence and has deepened 
the divisions and made it more difficult to reach a political 
negotiated solution.
    Mr. Yoho. Okay. Thank you.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho. Mr. Connolly of 
Virginia.
    Mr. Connolly. Thank you, Madam Chairman.
    Mr. Ambassador, in your testimony--in your written 
statement you refer to the fact that our Embassy has been 
relocated to Malta. So what is its mission? How does it 
function? Malta is not that far away but it ain't in Libya.
    Mr. Feierstein. Absolutely. The good thing, of course, 
obviously, our intention is to get back to Libya as soon as the 
security circumstances permit.
    Mr. Connolly. So the purpose of relocation was a security 
purpose?
    Mr. Feierstein. The reason that we withdrew from Tripoli in 
the first place was because there was fighting in the area, 
immediately around the Embassy to the point where the security 
of our personnel was in danger. Their ability to move around 
and do their jobs was very, very limited.
    Mr. Connolly. Well, let me--let me ask about that. I get 
the point. Even from Malta, is there a central governor? Are 
there ministers to whom they can relate and do their job?
    Mr. Feierstein. Yes, sir. Ambassador Jones is able on the 
phone and also in person--because many of the Libyan leaders 
come through Malta on a regular basis and so she has been able 
to meet with the foreign minister.
    She has been able to meet with the prime minister. She was 
here during the Africa summit and participated in all those 
conversations.
    Mr. Connolly. But let me--but I guess what I am getting at 
is it is not just our functionality but the functionality of 
the counterpart. I mean, to what extent would it be fair to say 
that is all mythology? I mean, yeah, they may have that title 
but they are not functioning as the minister of foreign 
affairs.
    You know, it is almost a Potemkin government, given the 
role of the militias, given recent history in Tripoli in terms 
of a takeover of the city for a while by an Islamist-oriented 
militia.
    What are we--I mean, are we going through sort of the 
motions of diplomacy as if we are dealing with a real 
structured government when in fact we are not?
    Mr. Feierstein. No, sir. I think--first of all, of course, 
Ambassador Jones is able to be in touch with a broad spectrum 
of political leaders in Libya--not just the government, not 
just the prime minister but across the board. So she is able to 
carry out our efforts to mediate, to promote political 
resolutions, to try to bring the parties together.
    Mr. Connolly. What is it you think is the critical sine qua 
non for trying to see a functioning government, if not a stable 
government, emerge from this morass?
    Mr. Feierstein. The sine qua non would be, one, an end to 
violence; two, we would like to see full participation in the 
House of Representatives, which is the Libyan Parliament.
    Mr. Connolly. We Democrats would like to see that here in 
our House of Representatives as well.
    Mr. Feierstein. And, three, of course, we would like to see 
the formation of a new government in Libya that would reflect 
fairly the full spectrum of political representation inside the 
House of Representatives. And so----
    Mr. Connolly. Wouldn't that be an Islamicist-dominated 
legislature, though, if it did what you just said--only 
represented a spectrum of opinion?
    Mr. Feierstein. No, sir. I think that if you look at the 
election of the House of Representatives in June, it was a 
fairly good cross section of what we consider to be the entire 
political spectrum. Most of the members are independents and we 
believe that it is a fair representation of the Libyan 
population.
    Mr. Connolly. So that is a hopeful analysis. Final 
question, because I am going to run out of time, one of our 
goals is to create a General Purpose Force. Is that correct?
    And the reason for that, obviously, is to substitute that 
ordered government force for roving militias, some of which may 
have good intentions, some of which may have an agenda with 
which we would disagree. But you can't have a stable 
functioning government if you don't have the ability to police 
in a normal functioning way.
    What are the prospects for us to succeed in training 5,000 
to 8,000 members of the GPF and to have it hold together and 
not, you know, disintegrate as we have seen in some other 
countries?
    Mr. Feierstein. That is absolutely still our objective. As 
I mentioned earlier, the Libyans have now signed the letter of 
agreement that would allow us to go forward. There is still the 
funding issue that we are waiting to resolve.
    But as soon as the security conditions permit, we continue 
to hold out as our objective to set up that force and to see it 
take on its responsibilities for security in the country.
    Mr. Connolly. Thank you, Madam Chairman. My time is up.
    Ms. Ros-Lehtinen. Thank you very much, sir.
    Mr. Perry is recognized.
    Mr. Perry. Thank you, Madam Chairman, and thank you, 
Ambassador. I got to tell you, while I listened to your 
testimony I feel like I am living in some kind of twilight zone 
of altered reality here.
    You know, even when you just speak of the last 
questioners--you know, how do we expect to train these folks--
and you say well, we have an agreement with the Libyans to do 
this, and I am thinking, you know, we have an--there is all 
these militias.
    They are having, essentially, a civil war. Like, what 
agreement do we have and have you ever tried to train troops 
under fire? I mean, it sounds--it sounds patently absurd. Let 
me just ask you this.
    You know, articles in the New Yorker and the Washington 
Post essentially said that the administration has a policy 
regarding Libya in particular and, in my opinion, in many other 
things of leading from behind.
    Assuming maybe that has some truth or not to it, in your 
opinion, first of all, is there any truth to that? Is there 
any--have we led from behind?
    Mr. Feierstein. Sir, I think that if you look at the 
history of our engagement with Libya since 2011, since the 
uprising against Muammar Gaddafi, you will see that the United 
States has been extremely engaged, beginning in September 2011 
with Secretary Clinton's leadership at a meeting in Paris.
    Mr. Perry. But forgive me for interrupting. Engaged is one 
thing. Leading is another. Leading is a whole different 
paradigm.
    So are we engaged or are we leading? And for leading show 
me or demonstrate--display to me how the oversight of our 
leadership has contributed to the success or the failure of 
what has happened in Libya.
    Mr. Feierstein. What I would say, sir, is that the United 
States remains the focal point--it remains the center of 
gravity for the international community.
    When the United States stands up and demonstrates resolve 
and demonstrates direction, the international community 
generally supports and falls into place behind. And so I think 
in the case of Libya, if you are looking at what we have tried 
to do in terms of promoting democracy and governance, building 
institutional capacity, addressing some of the security issues 
through the General Purpose Force and as well as border 
security and some of the other activities, I think those are 
all areas where the United States has played a leadership role 
in coordinating and bringing together the full international 
community.
    I think that in the--in the period immediately before 
Ramadan, right after the elections in June, you saw the United 
States with our friends and partners in the international 
community working very aggressively, trying to work out--the 
chairwoman mentioned the 10-point plan.
    We were very much involved in developing and negotiating 
that 10-point plan with the Libyans. So I think over and over 
again you see a----
    Mr. Perry. Well, let me offer this conjecture. With all due 
respect to the administration and the State Department, if it 
is as you say, that we are leading and the international 
coalition is behind us, that this is a breathtaking failure at 
this point. And I don't know how it is going to end up but at 
this moment it seems like a breathtaking failure of leadership 
and actualization and implementation.
    I mean, I look at 110, 111 EU personnel charged with 
securing the border and I look at the size of the border of--
you know, I don't know what kind of program anybody is on that 
think that that is going to work.
    But to me just simple arithmetic says that it has no 
absolutely--it is preposterous. That having been said, you 
know, I think about some of the other comments that have been 
made here regarding programs and sanctions.
    Do you think that rebel forces fighting one another with 
heavy weapons that they have procured from the failed state 
care about sanctions? And what programs are working under the 
auspices of, you know, thousands and hundreds of thousands of 
displaced civilians trying to live among, you know, a war-
tattered country and a war zone with foreign fighters coming in 
and arms coming in and going out?
    I mean, that is this altered state of reality that I feel 
like I am hearing here, and you say if we--if we can stabilize. 
We are not stabilizing anything.
    We are sitting here watching this thing burn down and we 
are milling around with all these foolish policies that we 
can't implement and we can't expect them to implement because 
there is no governance there.
    I mean, I am sorry but that is--I am listening to this 
rhetoric here and it sounds like a bunch of mumbo jumbo that 
means nothing on the ground. Am I wrong?
    Mr. Feierstein. Sir, I don't want to underestimate the 
challenges that are in front of us and, of course, they are 
huge and it is a very difficult environment in which we are 
trying to work.
    But the fact of the matter is that there are opportunities. 
The EUBAM mission that you mentioned, the border assistance 
mission, is not to guard the border but to train the Libyans to 
take on that responsibility themselves and at the end of the 
day the Libyans are going to be responsible for what happens in 
their country and they are going to have to do these things.
    So we can work with them. We can help them. We can support 
them. I think that many of the programs that we are--that we 
are pursuing now, particularly on the governance side--trying 
to build institutional capacity--are things that are going to 
succeed over time.
    But there is no--there is no getting around the basic point 
that you are making, I think, which is that this is an 
extremely difficult and challenging environment at this time. 
We need to stick with it.
    We need to try to push through this particular period and 
to get the Libyans into a situation where many of the things 
that we are trying to accomplish actually become effective and 
implementable.
    Ms. Ros-Lehtinen. Thank you very much. Thank you, Mr. 
Perry.
    Mr. Kennedy of Massachusetts.
    Mr. Kennedy. Thank you, Madame Chair. Mr. Ambassador, thank 
you very much for your service. Thank you for your testimony 
today.
    A couple of points that I would love to get your 
clarification on or just flush out to the extent that you can 
in this setting, sir. First off, as you have just indicated, 
the situation on the ground in Libya is very complex and very 
complicated, going to take a period of time.
    We are seeing instability throughout and a failure of 
institutions throughout and governing institutions throughout 
the Middle East and other parts of the world as well. This is 
not a short-term solution.
    Do you have--are you comfortable giving any sort of ball 
park assessment? Is this months? Is this years? Is this a 
decade? What type of forecast are we looking for--are we 
looking at here, to the best you can assess at the moment?
    Mr. Feierstein. Mr. Kennedy, I must say that it is 
something when I was in Yemen we had the same question. We 
dealt with the same things. To be entirely honest, I think that 
this is a very long-term investment of time and effort and 
energy.
    The fact is that we are dealing with a society here that 
had no institutional capacity, that had no governing capacity, 
and so if we are going to succeed it is going to require a very 
long-term effort on the part of the Libyans primarily, of 
course, but also with the support of the international 
community.
    Mr. Kennedy. And, Ambassador, I know there was some talk a 
few moments ago about some of the weapons that, at this point, 
are rampant throughout Libya.
    To the extent that you can say and can say in this setting, 
are you aware of any of those weapons being transferred through 
the Sinai into either--into Gaza or into other settings that 
are being used to basically foment violence in Israel and the 
surrounding areas, or into Syria, for that matter?
    Mr. Feierstein. I couldn't say specifically that I know 
whether they are going to Gaza. I can say that the concern 
about the flow of weapons out of Libya into other troubled 
regions--into Syria, Iraq or potentially into Gaza or the 
Sinai--is something that we do watch very carefully and we are 
very concerned about.
    We actually have, with the support of the Congress and 
based on congressional appropriations, we actually have a very 
aggressive program of trying to recover a lot of these 
conventional weapons.
    We have, for example, secured over 5,000 MANPADS that were 
in Libya. So we are working to try to dry up that resource and 
also, of course, the new U.N. Security Council Resolution 2174 
strengthened the arms embargo on Libya so that we are not 
seeing a lot of weapons coming in.
    Mr. Kennedy. And, Mr. Ambassador, I apologize if I am going 
to ask you to repeat something. But given, as you just 
forecasted, the length of the commitment, the challenge that 
you are--you have outlined, this is not something, I don't 
think, the United States can do alone.
    Clearly, as you indicated, this is going to be the 
responsibility primarily of Libyans but there is evidence, 
certainly, at least from the U.S. press that there is other 
nations that have been involved military in this conflict.
    What is the appetite of other nations in the Middle East or 
the surrounding nations there to actually help sustain--to 
build up some of the civil society there?
    This is not something that the United States is going to be 
able to have the deciding outcome nor should we be, I think, 
rebuilding an entire Libyan state. We have tried that once 
recently.
    Mr. Feierstein. Absolutely, and I think that there is a 
broad agreement between the United States, the United Nations, 
of course, our friends in the European Union as well as in the 
region about what kind of society we would like to see emerge 
in Libya.
    We may not always agree on the tactics but I think that we 
agree on the end state and I think that some of the Gulf 
States, the Emiratis and some of the others, are absolutely 
willing and committed to contributing to that.
    Mr. Kennedy. The type of commitment, sir, that would 
actually get us to where we need to go or where you believe we 
need to--we need to get to?
    I mean, the resources, whether it is military troops, civil 
society funding that is going to be necessary to build up a 
functioning government in Libya, is massive and that is--I 
hesitate to believe that we here in the United States are going 
to appropriate the sufficient funding to do that.
    I hesitate to believe that other nations in the region are 
going to hesitate to do that and if they are not then we are 
going to be looking at a series of instability for or a 
sequence of instability for an awfully long time.
    Is there a commitment from other countries to actually do 
this or to do it in a very real way or to just see what 
happens?
    Mr. Feierstein. Well, I think one thing--one point to make, 
of course, is that Libya is not a poor country and so a lot of 
the funding, a lot of the investment for these changes can come 
directly from the Libyans.
    I think in terms of institutional capacity building, the 
United States, along with our partners in the European Union 
primarily, are committed to taking on this--taking on this 
obligation, this commitment to work with the Libyans to try to 
achieve that.
    I think also we can work with some of our friends in the 
Gulf. Secretary Kerry is going to be meeting with the group 
that includes our European as well as our--GCC and the Turks in 
New York in 2 weeks to have exactly these kinds of 
conversations.
    Mr. Kennedy. Thank you, Mr. Ambassador. Madame Chair, thank 
you for the extra time.
    Ms. Ros-Lehtinen. Thank you, Mr. Kennedy. One of our many 
wonderful vets serving on our committee, Mr. Kinzinger, is 
recognized.
    Mr. Kinzinger. Thank you, Madam Chair, and thank you, 
Ambassador, for being here. I am going to say on the outset I 
was a supporter of intervention in Libya. I thought we did the 
right thing.
    I have, obviously, been very disappointed with the follow 
through and what it looks like today and I think it is 
important to kind of discover, as we are having this hearing, 
you know, what a post-war looks like, especially as, you know, 
what appears likely there will be intervention in Syria and 
there are questions, rightly, about what Syria looks like post-
Assad which, hopefully, there is a post-Assad time in Syria.
    I am sure it has probably already been touched on when I 
wasn't here but, you know, the idea of leading from behind--and 
I know that is something that has haunted the administration. 
They probably wish they never would have said it.
    But I think it is a reality and something that, you know, 
is smart to understand that, you know, America does best when 
it leads from the front and when America understands and, 
frankly, I don't know why that is something we are ashamed of.
    I mean, we ought to be very proud of the fact that if there 
is a problem in the world people look not to Russia, not to 
China, not to chaos. They look to the United States, and while 
we can't do everything, I like to be in that position.
    I like to be in the position where people look at us as a 
force for good and a force for stability. So anyway, that said, 
as the war raged, Gaddafi was killed and we saw a post-war.
    Where I found a lot of concerns was in terms of being able 
to build maybe a NATO mission afterwards or even a short time 
period that the United Nations mission lasted. So let me ask 
you a bit about the U.N. mission.
    Why was the UNSMIL's mandate only for 3 months and then it 
was extended for an additional 3 months? Did the administration 
insist on a longer mandate tied to goals and objectives rather 
than an arbitrary time line?
    I was just in Liberia, for instance, and that has been a 
mission that is successful but it is, obviously, quite ongoing.
    Mr. Feierstein. Sir, I believe that the mission was 
organized initially for 3 months and then an additional 3 
months, as you said. My understanding is that that is not 
uncommon for these kinds of missions to get that done.
    Since March 2012, it has now been rolled over each time for 
a 1-year period. So after the initial start-up, we have moved 
into a more stable annual review.
    Mr. Kinzinger. And do you think the administration was 
being overly optimistic or unrealistic in its assertion of the 
Libyan--the capacity of the Libyan Government and what accounts 
for the administration's misunderstanding of the commitment 
needed to assist the Libyan transition?
    And I don't mean that accusatorialy but was it just we 
maybe thought they could get their act together faster or what 
was it?
    Mr. Feierstein. I think that is absolutely a fair question 
and I would say that in all fairness probably there was an 
optimism, an over optimism perhaps, not only on the part of the 
United States but also on the part of the Libyans themselves 
and I think that it took a little bit of time before people 
realized really how weak the institutions were inside of Libya 
and how serious the internal divisions were so that as we moved 
along, remembering, of course, that initially the Libyans 
themselves did not want the foreign intervention.
    They didn't want a lot of engagement on the part of the 
international community and it was really only as these--the 
situation became clearer did they begin to turn to the 
international community and did we begin to respond.
    Mr. Kinzinger. And I think that is a fair point. Is that 
the same--why would the--how come the U.N. was not given a 
peacekeeping mandate?
    You know, if you look at, for instance, our experience in 
Kosovo with KFOR and the NATO model engagement there, I mean, 
it seems to be that, I think, is largely seen as a very 
successful mission.
    What is the reason? Is it the Libyans' request? What was it 
that we didn't implement something like that? Is it a lack of 
will on our side? Was it the lack of will on our NATO partners? 
I think that is important, again, especially as we look to 
Syria and the future there.
    Mr. Feierstein. I think that very clearly the Libyans 
themselves said that they would not welcome or support a 
peacekeeping mission.
    Mr. Kinzinger. Do you think there would have been--let us 
say the Libyan--I know we are playing games, in essence, in 
asking this but had the Libyans said we need a peacekeeping 
force here, do you think there was the will not just in the 
United States but in Europe to provide that?
    Mr. Feierstein. It is a hypothetical question, of course--
--
    Mr. Kinzinger. Right.
    Mr. Feierstein [continuing]. Hard to answer, but I believe 
that there would have been interest had that been a request 
from the Libyans.
    In fairness, of course, we have seen some talk in recent 
days and weeks about some kind of an international 
stabilization force and I can tell you that Secretary Kerry is 
very interested in exploring that, although the divisions 
within Libya are still an obstacle and still may prevent 
something like that from happening.
    Mr. Kinzinger. Good. And that is where I was going to go 
with that and I appreciate it. Thank you for your service. 
Thank you for being here, and I yield back.
    Ms. Ros-Lehtinen. Thank you very much, sir. Mr. Lowenthal 
of California.
    Mr. Lowenthal. Thank you. As someone who is not on the 
African Subcommittee and new to the Congress and learning about 
Libya, this is a very depressing hearing, you know, and I am 
not pointing fingers.
    I am not saying anything that we have done. It is just I am 
not sure I understand what a country--if this is a country on 
the brink of a failed state what a failed state would look 
like--I mean, this seems to me.
    So I want to--before I ask you something I want to state 
two things. One is I want to follow up on something that the 
ranking member, Mr. Deutch, said.
    I would like to have a classified hearing. I would like to 
know what that role has been in terms of the Egyptians and just 
what the United States knew about that and understood about 
that. That is one, and also, I too would--while you lay out, 
and I think it is a very positive thing, a potential dialogue 
on how we could bring people together and how the Libyans--
there is tremendous potential--it still eludes me how we get 
there and that leads to my question.
    Could you give me--maybe others know--a little bit more 
detailed explanation of who are--what are the political 
factions that you have mentioned?
    What are the militias? Can--you know, can you tell us a 
little bit more about what is really there today and what 
exists and who is the most powerful?
    Mr. Feierstein. Well, a lot of the militias, of course, Mr. 
Lowenthal, are a holdover from the resistance to Muammar 
Gaddafi. So the two--the two militias that you talk about 
mostly in terms of Tripoli are the Misratans and the Zintan.
    Those are two towns inside of Libya, Misrata and Zintan, 
and they both had militias that fought against Gaddafi in 2011, 
and since 2011 they have kept the militias together. They have 
occupied various parts of Tripoli.
    The Zintan were the ones who were in control of Tripoli 
International Airport and the conflict that erupted in Tripoli 
a couple of months ago, which eventually led to the departure 
of American diplomats as well as most of the other diplomats in 
the city and most of the foreign community, were clashes 
between the Misratans and the Zintan.
    Now, you know, and we need--because there is not a clear 
hard line and as I tried to say earlier on, I think that on 
both sides of the political divide within Libya you see 
different gradations, different ideas.
    And so although the Misratans tend toward the more Islamist 
side, that does not mean that they are Islamists--that they are 
hardcore Muslim fundamentalists.
    But they tend that way, and the Zintan tend more toward the 
secular side. But that doesn't necessarily mean that they are 
entirely, you know, liberal democrats. They have various 
gradations also.
    So you see a number of different elements. And then, of 
course, you have Khalifa Haftar, who emerged in the area around 
Benghazi who also has been extremely active and pushed what he 
calls Operation Dignity, which he claimed was a move toward 
defending secular elements, secular ideas inside of Libya, 
which struck a very positive chord with many Libyans but also, 
as I mentioned earlier, because he has chosen a violent path 
has deepened the polarization in the society.
    Mr. Lowenthal. Is there any one group that is on the 
ascendency?
    Mr. Feierstein. The Misratans have fundamentally succeeded 
in eliminating Zintan control inside of Tripoli but, overall, 
our assessment is that none of the actors inside of Libya have 
the capacity or the ability to succeed militarily.
    We think, at the end of the day, that the forces are 
roughly in balance so that they could not win an outright 
victory.
    Mr. Lowenthal. Thank you, and I yield back.
    Chairman Royce. Thank you. We go now to Mr. Ron DeSantis of 
Florida.
    Mr. DeSantis. Thank you, Mr. Chairman, and thanks to the 
Ambassador for coming. I am glad we are examining this because 
I think and, understandably, a lot of the focus of both the 
media and our time in Congress focuses on what is happening 
with ISIS, the Gaza-Israeli conflict, Iran's pursuit of a 
nuclear weapon and those are all very, very critical issues.
    I think Libya really represents a catastrophic failure in 
policy. If you look back in 2011, U.S. intervention was really 
on the side of a lot of these Islamist rebels and I think that 
that was a cruel lesson that we learned 2 years ago tomorrow 
when our Ambassador was murdered by Islamic militants in 
Benghazi.
    Simply removing a dictator, no matter how unsavory that 
individual is, is not, in this part of this world, going to 
lead necessarily to anything better and it can actually 
sometimes lead to more chaos.
    In our policy we need to reorient it so that we are 
vindicating our national interest but doing it in a way where 
we are skewing, trying to socially engineer these societies.
    It is just beyond our capacity to do. I think it is--I 
think it creates a lot of unintended consequences. And so if 
you look today, seems to me that there are far more Islamic 
jihadists operating not only in Libya but in North Africa today 
than there was prior to the intervention in 2011.
    But that will be a question I ask to you. Do you 
acknowledge that today there are more Islamic militants that 
are armed and operating inside of Libya than there were prior 
to 2011?
    Mr. Feierstein. It is a hard question to answer. Let me 
make a few points, if I may, sir. One, of course, is that the 
reason that the United States and the international community 
intervened in 2011 was because of the brutality of the Gaddafi 
regime's----
    Mr. DeSantis. Well, that was the posited initial reason but 
that, surely, and I think you would have to acknowledge that 
very quickly evolved into a regime change mission.
    I mean, that may have been the initial pretext. But listen, 
and I appreciate you wanting to clarify that. I do have a few 
other questions.
    I don't want--I just don't want to relitigate that. I was 
just setting up kind of my posture on it just for the record 
and I appreciate you wanting to engage.
    But since my time is limited, can you just speak to the 
number of militants? Do you think that there are more 
terrorists operating in Libya today than there were prior to 
2011?
    Mr. Feierstein. And, again, and I appreciate that and the 
specific--the specific answer is that it is very hard to say 
because al-Qaeda and the Islamic Maghreb is not new and is not 
a result of 2011. It was there many years ago.
    We know that there was a brutal war inside of Algeria for a 
number of years in the 1990s which was driven by Islamic 
extremism in that society and so those people were there and 
that has been a factor in North Africa for many, many years.
    So this is a longstanding challenge. I think that the 
concern that we have and maybe the concern that you are 
touching on is the fact that Libya is an ungoverned space now 
and so that there is an ability of these organizations and 
these groups to operate in Libya in a way that they perhaps 
couldn't before.
    Mr. DeSantis. Do you--understanding that and I agree, the 
administration is proposing to lift longstanding restrictions 
on Libyan nationals conducting flight training and nuclear 
training in the United States.
    Given this fact that you have acknowledged, doesn't that 
seem like an odd time to want to do that, given that we know 
there are Libyans inside of Libya who are very much hostile to 
the United States?
    Mr. Feierstein. Sir, I think and, of course, this is an 
issue for the Department of Homeland Security, but we support 
the lifting of that because Libya is the only country in the 
world on which that restriction is applied, including countries 
that are designated as state sponsors of terrorism, don't have 
that restriction applied to them.
    And even if we lift that particular restriction, of course, 
Libyans who are coming or applying to come here would still be 
subject to all of the regular safeguards that we would apply to 
any visa applicant.
    Mr. DeSantis. Let me ask you this, a final--my time is 
close to being expired. President el-Sisi of Egypt has really 
been strong to target Islamic groups in Egypt and throughout 
the region and, of course, there are the reports that Egypt 
conducted air strikes along with the United Arab Emirates. 
Seems to me that a lot of the Islamist groups they try to 
appeal for outside help to Turkey and Qatar. So what is the 
administration's position?
    Are we firmly in the side--on the side of Egypt and the UAE 
and do we recognize that Turkey and Qatar are not playing a 
constructive role in Libya or are we aligning ourselves 
differently?
    Mr. Feierstein. The position that we have taken both in 
public and in private with all of those parties is that we 
believe that unilateral foreign military intervention in Libya 
is polarizing in that society, deepens the divisions and makes 
it more difficult to try to achieve the kind of political way 
forward. A negotiated solution to these differences that, in 
our view, is the only way that we are going to resolve this 
problem inside of Libya.
    So we are opposed to all outside intervention that supports 
any faction in its pursuit of a violent outcome to the 
situation there.
    Mr. DeSantis. My time has expired and I yield back.
    Chairman Royce. Karen Bass of Los Angeles, California.
    Ms. Bass. Thank you, and thank you, Mr. Ambassador, for 
clarifying our original reason for intervening in Libya. I 
think sometimes when groups come to our attention here we think 
they might be emerging for the first time.
    You know, an example is Boko Haram. We heard of Boko Haram 
for the first time but we know Boko Haram has been around for a 
long time. I wouldn't want it left that we intervened on behalf 
of Islamic jihadists.
    But I did want you to address the regional implications 
because part of what my colleague was saying, you know, 
certainly was accurate. I think of the coup that happened in 
Mali and its direct relationship to the destabilization in 
Libya.
    So I wanted to know if maybe you could give me an update on 
what is happening in Niger and Chad that might be related to 
Libya.
    Mr. Feierstein. Well, we are very concerned, of course, on 
precisely this issue of the potential bleed over of instability 
in Libya to all of its neighbors and, certainly, we have had a 
number of conversations with the Tunisians, who are very 
concerned, as well as the countries of the Sahel.
    During the Africa Summit, Undersecretary Sherman actually 
had a session on security in the Maghreb and the Sahel that 
discussed many of these issues and, you know, one of the things 
that we are trying to do is to build up border security and the 
capacity of those states to prevent the bleed-out of 
instability in Libya into their societies and that would affect 
the stability of those countries.
    So we have the Trans-Sahel Counterterrorism Program. We 
have a number of other initiatives that will help address 
border security and, of course, more broadly we have a number 
of counterterrorism initiatives and other initiatives in the 
Sahel region to help build up the security and stability of 
those societies.
    Ms. Bass. You know, do you know what has happened to the--
there were many sub-Saharan Africans that were in Libya that, 
right after Gaddafi fell, came under some brutal repression by 
a variety of the militia forces, and do you know the status of 
those groups--whether they were able to safely leave Libya?
    Are they still there? Are they still going through what 
they were going through after the fall of Gaddafi?
    Mr. Feierstein. Ma'am, I am sorry. I remember the situation 
very well. I don't know the answer to your question but will be 
happy to get the answer and get it back to you.
    Ms. Bass. All right. I would appreciate that. And then I am 
not sure if this has come up before but understanding what has 
happened in Tripoli, what is the status of the airport now?
    Mr. Feierstein. The status of the airport is that it is 
still closed. We believe it has been heavily damaged and that 
it will require a great deal of reconstruction once the 
situation stabilizes.
    Ms. Bass. Are there planes that the militia groups have 
access to?
    Mr. Feierstein. No, ma'am. We have seen the reports. There 
were some assertions that 11 planes had been taken from the 
airport. We have actually had an opportunity to examine that 
issue and we can say categorically that that is absolutely 
without foundation.
    Ms. Bass. Gaddafi's son?
    Mr. Feierstein. Another question I am going to have to take 
back and get back to you.
    Ms. Bass. Okay. All right. Thank you. I yield.
    Chairman Royce. Okay. Ms. Tulsi Gabbard of Hawaii.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    Mr. Ambassador, I appreciate you spending your time here 
with us this morning. Do you have any State Department 
personnel left in Libya?
    Mr. Feierstein. No, ma'am.
    Ms. Gabbard. It is--I have got a couple of questions here. 
I will try to get through them quickly. There have been some 
different references to the fighting forces on the ground in 
Libya. Some are calling them rival militias.
    There has been some talk of a sectarian civil war, others 
of Islamic extremists of varying names, whether they are al-
Qaeda or other--go by other names. Which is it?
    Is it Islamic extremists who are trying to take over 
territory? My understanding is that this isn't a sectarian 
civil war necessarily, and how would you characterize it?
    Mr. Feierstein. I think that that is absolutely correct, 
although as I mentioned earlier, the different groups have 
different colorations in terms of where they fall on the 
political spectrum. Some are more secular.
    Some are more Islamist. But it is not necessarily a 
sectarian conflict. Our view is that primarily it is a fight 
for power and for resources and for influence.
    Ms. Gabbard. I think it is difficult to see any so-called 
political solution on the horizon, given the situation on the 
ground, given there is no State Department personnel, and I see 
from what occurred since 2011 with the lack of governance there 
that, really, as has been noted earlier today, change needs to 
come from the Libyan people, that we don't have a good track 
record of nation building in other countries and that this 
needs to occur organically within that country.
    AFRICOM commander--U.S. AFRICOM Commander General Rodriguez 
recently warned that al-Qaeda adherents and affiliates there in 
Libya are gaining strength as ``arms, ammunition, explosives 
from Libya continue to move throughout the region in northwest 
Africa,'' and others within the Department of Defense have 
stated that if this situation is left unchecked then we will 
continue to see the threat to the United States and our 
interests heightened as we are seeing in other areas in the 
Middle East. What are we doing to prevent that?
    Mr. Feierstein. Well, I think that, again, all of the 
programs that we have--I think that your basic point is exactly 
the right one, which is that this is something that the 
solutions need to come organically from inside of Libya from 
the Libyan people, and actually we are seeing some positive 
signs that there is a dialogue going on among the Libyan people 
that we hope would lead to some kind of a political path 
forward.
    It is nascent, it is very low key, but it is there and we 
believe that over time hopefully the Libyans on both sides of 
the political spectrum, on all sides of the political spectrum, 
will actually come together and agree on a dialogue, agree on a 
negotiation.
    That is the only way that we are going to be able to get 
past this period of militias and the violence and get into a 
situation where we can begin to work on some of the 
institutional capacity building on the security side as well as 
the governance side that, over the long term, will resolve 
those issues and resolve our concerns.
    Ms. Gabbard. Wouldn't you say as that dialogue and those 
conversations are going on, though, that you have these Islamic 
extremists who are continuing to gain strength in the region, 
not only affecting Libya but others?
    Mr. Feierstein. It is a concern without doubt and again, I 
think that over the long term, although we in the international 
community can help and we will help in institutional capacity, 
but our view is that the vast majority of the Libyan people 
don't want that.
    They don't support that kind of a vision, and that if we 
have viable governing institutions--if the House of 
Representatives gains traction, if we see broad participation 
in that and the creation of a government that fairly represents 
the various elements in the House of Representatives that the 
Libyan people will rally around and that the Islamic extremists 
in that society are relatively small and can be managed and 
eliminated.
    Ms. Gabbard. Thank you. My concern directly is in how 
this--how they and how this affects our interests--the 
interests of the United States, the safety of the American 
people.
    It wasn't very long ago that ISIS was determined to be a 
very so-called small threat that didn't need to be taken 
seriously and, obviously, we are seeing that that is not the 
case.
    So our targeting and our concern with these Islamic 
extremists there needs to be in a broader vision of recognizing 
that this isn't about a specific country whether it is Libya or 
Iraq or Syria.
    This is about a greater threat that is posed directly to 
the American people. Thank you.
    Mr. Feierstein. And we agree with that completely, of 
course.
    Chairman Royce. Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair. Let me--let me follow 
that and I think it is important for the public to understand 
why we spend our time on these issues.
    So I would like you, in 4 minutes and 51 seconds, if you 
could, tell us what you believe is the strategic importance of 
Libya and the region, why we intervened and what lessons we 
have learned.
    Mr. Feierstein. Well, I think that the strategic importance 
of Libya touches on a number of issues. One, of course, is that 
Libya is a major provider of energy resources to the world.
    Before the 2011 revolution, they were producing about 1\1/
2\ million barrels of oil a day. They are back now to about 
800,000, which is growing by the day.
    They are a very important provider of energy to--
particularly to Europe and so in terms of the overall global 
economy, Libya plays a very important role. They are 
strategically located in the region. They have a long coastline 
on the Mediterranean.
    One of the issues that we have seen, of course, unrelated 
to the issue of Islamic extremism or security is the flow of 
immigration and the destabilizing effect that that flow has had 
on southern Europe because of the inability of Libya to control 
its borders and to prevent that flow through.
    I think that, again, as your colleague mentioned just a 
moment ago, we have serious concerns about the impact of or the 
potential impact of Libya as an ungoverned space for groups 
like al-Qaeda and the Islamic Maghreb, Ansar al-Sharia, which 
is the group that was responsible for the attack on our 
facility in Benghazi 2 years ago, to continue to metastasize, 
to prevent or to pose a threat to its neighbors, to Tunisia, to 
Algeria, to the states of the Sahel, to Egypt.
    Egypt is--has great concerns about the flow or the possible 
flow of extremists across their border into the western desert 
of Egypt and so we see that potential, the potential that 
eventually you might see increasingly a linkage between the 
extremism inside of Libya with other parts of the Middle East--
Syria, Iraq, et cetera--and eventually a threat to security and 
stability around the world.
    And so we have a positive--we have a positive strategic 
interest, which is in seeing Libya as a secure stable producer 
of energy resources and an important factor in promoting global 
economic security, and then there is also the negative impact 
of an ungoverned Libya and how that might threaten our 
security.
    Ms. Frankel. And what lessons have we learned from the 
intervention and the chaos that we see there now?
    Mr. Feierstein. Well, I think that where we are now is that 
there is a greater recognition today, I believe, in what kind 
of challenge we confront inside of Libya and the fact that 
helping the Libyans move to a secure stable state with capable 
institutions that can provide basic services to the citizens, 
that can govern, that can provide security is going to be a 
long-term challenge which is going to require a long-term 
commitment on the part of the United States and our partners in 
the international community to help the Libyans achieve that 
objective.
    Ms. Frankel. Thank you, Mr. Chair. I waive the rest of my 
time.
    Chairman Royce. Thank you. We go now to Mr. Brad Sherman of 
California.
    Mr. Sherman. Thank you. I have sat here in this room while 
the administration gets berated because somehow you are not 
able to achieve a loving and peaceful world at--and achieve it 
without any American casualties.
    We don't have control of what is going on on the ground in 
Syria or Iraq or Libya, and somehow if we only had somebody in 
the White House with a different personality that everyone in 
the Middle East would do what we said and we would be in 
control and we would achieve it all without any troops on the 
ground.
    Are you aware of any strategy that has realistically 
proposed a method to achieve American leadership from the 
front, control of what is going on, the destruction of all 
dangerous evil forces without substantial American casualties?
    Have any of the think tanks here in Washington come up with 
such a ground plan? You could give me a one-word answer.
    Mr. Feierstein. No, sir. I think----
    Mr. Sherman. Thank you. It is--you know, destroy all 
dangerous evil is a great slogan. But the real slogan for an 
effective foreign policy is managing a messy world and I guess 
you can't--that isn't poetry.
    But the fact is that if we wanted an orderly Libya we 
could, you know, conjecture how many hundreds of casualties a 
year we would have to suffer to implement that immediately and 
not by--you know, obviously leading from behind is a terrible 
slogan but influencing from afar involves a lot fewer 
casualties than taking control on the ground.
    I want to focus a little bit on money. I am the only CPA on 
this committee, and having already dismissed the idea of 
glorious slogans, pinch pennies now is probably the least 
glorious slogan.
    But this is a very rich country. American taxpayers have 
spent billions of dollar to help the Libyan people. Libya 
acknowledges over $6 billion of debt to bankers, to other 
governments. Doesn't acknowledge one cent of debt to the United 
States.
    What have we done? I mean, know Libya is supposed to pay 
for the military training in Bulgaria but it is not happening. 
We are--the Libyan special operation forces are being trained 
at the taxpayer expense.
    How forceful has the State Department been in saying, you 
ought to be paying us for the billions of dollars we spent a 
few years ago and at very minimum the gravy train stops now--if 
you don't have the cash we will take the notes secured by the 
oil?
    Or is American--the interests of the American taxpayer not 
high on the list?
    Mr. Feierstein. Sir, I think, as you mentioned, Libya is 
not a country without resources, although, unfortunately, one 
of the institutional capacities that they are lacking is the 
capacity to manage their money.
    Mr. Sherman. I am not saying these promissory notes would 
be--well, by today's credit rating agencies they might be given 
Triple A.
    But no sane credit rating agency would give them a Triple A 
rating. But at least get us something. Have you gotten--do you 
have the promissory notes that would be paid once Libyan 
security is reestablished, whenever that happens?
    Mr. Feierstein. I think that, certainly, as we go forward 
and we begin to discuss these programs and these training 
initiatives that we would like to do with the Libyans that the 
issue of paying for it is----
    Mr. Sherman. Can you go back and get the Libyans to assume 
financial responsibility for the Libyan Special Operations 
Forces training going on today? Is that a priority for the 
State Department?
    Mr. Feierstein. The--on the General Purpose Force having 
the Libyans----
    Mr. Sherman. And I am focused on the Libyan Special 
Operation Forces because that is happening now at taxpayer 
expense.
    Mr. Feierstein. And, Congressman Sherman, I think that the 
fundamental point is that what we are doing in Libya now we are 
doing because we believe that it supports the interests of the 
American people. So the Libyan Special Operations Forces is 
precisely aimed at trying to prevent the kind of terrorism----
    Mr. Sherman. We are selling $11 billion worth of arms to 
Qatar presumably because we think that is consistent with our 
foreign policy. I am not so sure it is. We are not giving them 
away. We sell weapons to Australia. Presumably, that is in our 
national interest.
    So why do you defend giving money to Libya rather than 
taking promissory notes when it is far more--just as much in 
our interest to provide weapons and training to Australia or 
Canada, et cetera?
    Do people at the State Department care enough about the 
taxpayer to at least get promissory notes for what we are 
providing to Libya now?
    Mr. Feierstein. What we are providing to Libya now we are 
providing because we believe that it is in the interest of the 
United States to provide it. We don't provide them with 
weapons. If they want weapons they purchase them in the same 
way that the Qataris do.
    Mr. Sherman. But we charge Australia for training. We 
charge European--the NATO allies for training. We charge for 
nonlethal supplies.
    Sir, you are hiding behind this idea that it is in our 
interest so we shouldn't charge for it, which really means the 
State Department doesn't care about the taxpayer, because every 
time we provide training and weapons that is consistent with 
our foreign policy, every time we allow our businesses to do 
business abroad it is consistent with our national policy, and 
just saying we are going to give away money because the people 
we are giving it to are consistent with our foreign policy is 
basically saying you want to give away money.
    I yield back. I hope you will take this message back.
    Chairman Royce. Let me just close here, if I can, by 
thanking Ambassador Feierstein for his testimony before our 
committee this morning. We thank the members, too.
    Obviously, Ambassador, you have your hands full. As Mr. 
Lowenthal on this committee said, it is a depressing situation 
and as the administration works to get a strategy together, a 
plan together, we hope you will continue to engage with the 
committee on that.
    At that point, we adjourn for now and thank you again, 
Ambassador.


    Mr. Feierstein. Thank you, Mr. Chairman.
    [Whereupon, at 11:49 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record
                   
                   
                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 

                                 [all]
</pre></body></html>
